OIG Investigative Reports Press Release Sacramento CA., 02/06/2014 - Two Sentenced to Prison for Student Loan Fraud Schemes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Two Sentenced to Prison for Student Loan Fraud Schemes
FOR IMMEDIATE RELEASE
Thursday, February 06, 2014
www.justice.gov/usao/cae/
usacae.edcapress@usdoj.gov
Docket #: 2:12-cr-316 LKK (Wright); 2:12-cr-313 TLN
(Wilder)
SACRAMENTO, Calif. — United States District Judge Troy L. Nunley sentenced Brent W. Wilder, 44, of Antelope, today to two years and nine months in prison, and on Tuesday, U.S. District Judge Lawrence K. Karlton sentenced Michelle Wright, 32, of Stockton, to three years in prison and one year of home confinement, United States Attorney Benjamin B. Wagner announced. The defendants were charged in separate cases with conspiracy to commit student loan fraud. Wright was also convicted of aggravated identity theft.
In the first case, according to court documents, between February 2009 and April 2012, Wilder and Michael J. Huddleston, 44, of Sacramento, obtained Federal Student Assistant (FSA) funds by recruiting more than 50 straw students to apply for aid and caused the fraudulent disbursement of more than $200,000. The straw students applied for FSA at American River College, Sacramento City College and Consumnes River College. These applications contained false statements regarding the eligibility of the applicant. For the most part, all of the students signed up by Wilder and Huddleston withdrew from classes shortly after receiving the funds or received failing grades. While some of those students may have used the funds for legitimate educational expenses, Wilder and Huddleston demanded approximately half of those funds for their own purposes. Wilder has been ordered to pay $19,411 in restitution.
In the second case, Michelle Wright was part of a similar conspiracy to commit student loan fraud. She and her co-defendants recruited straw students to sign up for college classes for the purpose of receiving financial aid funds. Some of the individuals agreed to have their identities used to commit fraud; other individuals had their personal information used to commit fraud without their consent.
"I'm proud of the work of OIG special agents and our law enforcement colleagues for holding Michelle Wright and Brent Wilder accountable for their criminal actions and for shutting down two more student aid fraud rings in California," said Natalie Forbort, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Western Regional Office. "As these two fraud ringleaders and their co-conspirators who have been sentenced for participating in these fraud rings know, stealing student aid is a crime. Tracking down those who prey on this program and the innocent students who rely on it to make their dreams of a higher education a reality is a priority of our office."
Huddleston is scheduled to be sentenced by United States District Judge Troy Nunley on March 6, 2013. He remains out of custody on a $100,000 bond.
Five others have been convicted and sentenced in Wright's case. Janeigh Mendoza, 32, of Tracy, was sentenced to four years and three months in prison. The others, including Michelle Wright's husband Kenneth Wright, were sentenced to terms of probation. Michelle Wright was ordered to pay $129,171 in restitution.
These cases are the product of investigations by the United States Department of Education, Office of Inspector General. Assistant United States Attorney Jared C. Dolan is prosecuting the cases.
####
Top
Printable view
Last Modified: 02/07/2014
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov